<html>
<title> - HARVESTING THE DIGITAL AGE: CONNECTING OUR COMMUNITIES FOR A BETTER FUTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 FIELD HEARING: GETTYSBURG, PENNSYLVANIA: HARVESTING THE DIGITAL AGE: 
             CONNECTING OUR COMMUNITIES FOR A BETTER FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON RURAL DEVELOPMENT, AGRICULTURE, TRADE, AND 
                            ENTREPRENEURSHIP

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            OCTOBER 21, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-052
             Available via the GPO Website: www.govinfo.gov
             
             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-059                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------             
             
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Abby Finkenauer.............................................     1
Hon. John Joyce..................................................     3

                               WITNESSES

Mr. Brandon W. Carson, Director, Planning & Community Development 
  Division, Southern Alleghenies Planning & Development 
  Commission, Altoona, PA........................................     5
Mr. L. Michael Ross, EDP, President, FCADC, Chambersburg, PA.....     7
Mr. Anthony Angelini, Social Studies Teacher, New Oxford Middle 
  School, Conewago Valley School District, Gettysburg, PA........     9
Mr. Brock Widerman, President, Adams County Farm Bureau, 
  Gettysburg, PA.................................................    11

                                APPENDIX

Prepared Statements:
    Mr. Brandon W. Carson, Director, Planning & Community 
      Development Division, Southern Alleghenies Planning & 
      Development Commission, Altoona, PA........................    22
    Mr. L. Michael Ross, EDP, President, FCADC, Chambersburg, PA.    26
    Mr. Anthony Angelini, Social Studies Teacher, New Oxford 
      Middle School, Conewago Valley School District, Gettysburg, 
      PA.........................................................    29
    Mr. Brock Widerman, President, Adams County Farm Bureau, 
      Gettysburg, PA.............................................    33
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
 HARVESTING THE DIGITAL AGE: CONNECTING OUR COMMUNITIES FOR A BETTER 
                                 FUTURE

                              ----------                              


                        MONDAY, OCTOBER 21, 2019

                  House of Representatives,
               Committee on Small Business,
                 Subcommittee on Rural Development,
                  Agriculture, Trade, and Entrepreneurship,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:11 p.m., at 
the Adams County Agricultural and Natural Resources Center, 670 
Old Harrisburg Road, Gettysburg, Pennsylvania, Hon. Abby 
Finkenauer [Chairwoman of the Subcommittee] presiding.
    Members present: Representatives Finkenauer and Joyce.
    Chairwoman FINKENAUER. Good morning. The Committee will 
come to order. I am so excited to be here today in Gettysburg, 
and joined by my Ranking Member, Dr. Joyce. We are so grateful 
to all the folks who came out today, especially our witnesses. 
I know some of you drove quite a way to get here, so it means a 
lot, and we are so excited. This is my first committee hearing 
that's not in D.C., andf it's very, very important to be doing 
this.
    For those in attendance, I would just like to share some 
background on the proceedings and how all this works. This is a 
formal congressional field hearing of the House Committee on 
Small Business. Due to this format, there is not an opportunity 
for questions or comments from the audience. I do appreciate 
your interest in today's topic, though, and hope that each of 
you will help uplift the issues that come out of our discussion 
today.
    Field hearings play a very important role in the work of 
our Committee. Traveling to Washington, D.C. and testifying 
before Congress can be hard for a lot of folks across the 
country given the cost it takes to either fly or drive. It can 
prevent some very important voices from being heard. Field 
hearings bring the work of our Committee to our districts and 
offer our communities the opportunity to share their views on 
issues that matter. I want to thank Dr. Joyce for inviting me 
to this historic part of his district and our country.
    Just like my district, farmers and small businesses here 
are the backbone of the local and state economy. It is one of 
the reasons why Dr. Joyce and I have been able to work across 
the aisle to help address issues impacting communities like 
ours, including trade and making sure that small towns in rural 
areas are places that our next generation can build a life and 
raise a family.
    Today's hearing is an extension of that work, and I look 
forward to hearing from each of our witnesses here today.
    As I always like to remind folks on the Committee, our 
farmers are also our small business owners. Everybody needs 
access to high speed Internet. Today, it is all but impossible 
to grow a business without it.
    From precision agriculture, to selling products online, to 
even taking a community college class online, broadband has 
become a key part of economic opportunity. 19 million Americans 
do not have access to high speed Internet, and those living in 
rural parts of our country are much more likely not to have it. 
While more than 98 percent of people living in urban centers 
have access to high speed Internet, 1 in 4 Americans in rural 
areas don't have it. Rural areas in Iowa, like Buchanan County, 
have been left behind because of the costs and challenges 
associated with building out the broadband infrastructure 
needed to serve our smaller and more spread out population. 
This has had a real impact on our economy and quality of life 
in northeast Iowa.
    I invited a commissioner from the Federal Communications 
Commission, the leading government agency, in regulating and 
overseeing broadband, out to my district. She and I heard 
firsthand from our small business owners, farmers, school 
superintendents, and healthcare providers, just how hard it is 
to get high speed Internet in my district. A farmer showed us 
how the new technology in his tractor needs to connect to 
broadband to function correctly. We heard from healthcare 
facilities that want to expand into telemedicine, but cannot do 
so without high speed Internet. I know that your communities 
face similar challenges, which is why this is so important to 
be able to uplift today.
    Through conversations with business owners across northeast 
Iowa, I learned that a lack of access to broadband has an 
especially detrimental effect on our small businesses. There 
are small businesses in my district that cannot complete simple 
online payment transactions because their Internet service goes 
down multiple times a day. Others say they are paying sky high 
prices, but still facing much slower internet speeds. For those 
already struggling to compete against urban or online 
competitors, they feel as though they are falling further and 
further behind. And quite frankly, it shouldn't be that way.
    Having reliable and affordable high-speed Internet 
connection can make all the difference. In fact, small 
businesses that are digitally connected double their earnings 
per employee. They also see four times the revenue growth year 
after year, and are three times more likely to create jobs. 
That is why we must continue to coordinate federal resources 
and make common-sense investments in broadband access.
    I am proud to serve on the Congressional Task Force on 
Rural Broadband, and I am working to ensure that investments in 
rural broadband are included in any comprehensive 
infrastructure package that passes through the House. The 
Federal Communications Commission and U.S. Department of 
Agriculture have made strides to develop broadband networks in 
rural communities, but much more work is needed to be done. 
According to the FCC national broadband map, residents in Iowa 
and Pennsylvania both have nearly complete access to high speed 
Internet, although we know that is simply not the case. The sad 
reality is that there are more Americans without broadband 
access than these maps indicate. When making significant 
federal investments in broadband deployment, we need to be 
working with accurate data. Without that, we cannot ensure the 
funds and resources are going where they are needed. In fact, I 
introduced legislation to make sure that we not only know which 
areas have coverage, but also the quality and the cost of the 
services that folks are receiving.
    Last month, the FCC issued an order requiring new data 
collection to gather more accurate information on broadband 
accessibility. The Commission also proposed establishing a new 
fund to help close the digital divide using this improved data. 
We will be monitoring their progress on gathering the data and 
implementing a new fund to make sure that it is done in a way 
that helps our communities in need.
    It has become painfully clear that private investment is 
not enough here. I hope that today's discussion will highlight 
ways that the federal government can help improve connectivity. 
I truly thank each of the witnesses for joining us here today, 
I look forward to your testimony, and I am very grateful that 
Dr. Joyce and I were able to work together to do this today.
    Before I introduce Dr. Joyce, I will just take a moment to 
explain how all of this is going to work. After Dr. Joyce gives 
his opening statement and introduces each of you, you will have 
some time to give testimony. We ask that you keep your 
statement around 5 minutes. After each of you speak, Dr. Joyce 
and I will ask you questions. Don't worry if there is something 
you didn't get to in your testimony. We will have plenty of 
time to explore additional topics during the question and 
answer portion.
    Now, I would like to introduce my Ranking Member, Dr. 
Joyce, for his opening statement and to introduce our 
witnesses.
    Mr. JOYCE. Thank you, Chairwoman Finkenauer. Good 
afternoon, and thank all of you for being with us today in 
historic Gettysburg. It is Chairwoman Finkenauer's first trip 
to Gettysburg, and she has promised it will not be her last.
    There are many people to thank. First and foremost, these 4 
expert witnesses for sharing your perspective on rural 
broadband access. Special thanks to Adams County Agricultural 
and Natural Resources Center for hosting us here today in this 
beautiful facility. Most significantly, I would like to thank 
the gentlelady from Iowa, Ms. Abby Finkenauer, who is the 
Chairwoman of the Subcommittee on Rural Development, 
Agriculture, Trade, and Entrepreneurship. Like me, she is in 
her first term in the House of Representatives, and she 
represents a large part of rural Iowa. There are a lot of 
similarities between our districts.
    This is the sixth hearing that we have held together, and I 
will tell you, we have become great friends along the way. 
Thank you. Thank you, Chairman Finkenauer, for being here with 
us today, and welcome to the Keystone State. Welcome to Adams 
County.
    In the 21st century, the internet has become an integral 
part of American lives. From schools to industrial hubs to 
apple and dairy farms, access to technology is synonymous with 
one word. It is synonymous with success. Small businesses of 
all industries require both reliable and affordable broadband 
to compete in local, national, and international markets. 
Today, sadly, more than 24 million Americans lack access to 
high speed internet. The vast majority of those live in rural 
communities. Here in Pennsylvania specifically, more than 
800,000 people do not have access to reliable internet, and 
those in rural areas have substantially slower connectivity 
than those who live in larger urban areas. When comparing urban 
and rural broadband deployment, 98 percent of urban America has 
access to both fixed and mobile broadband, while unfortunately 
here, only 68 percent of rural citizens have that same access.
    I am committed to never allowing our rural communities to 
be left behind.
    It has been well-documented that broadband connectivity is 
crucial for engagement in the modern economy, as well as the 
social, educational, and political spheres. Today, with our 
expert witnesses, we will address all of these areas.
    Unfortunately, large telecommunication companies have 
little incentive to invest in broadband infrastructure in areas 
with low population density. Instead, small telecommunication 
carriers are far more likely to invest in rural communities, 
often because they are their own communities. Frequently, 
however, these small firms face numerous challenges in their 
efforts to increase broadband access. Without the ability to 
disseminate the high costs of deployment or leverage economics 
of scale, the small telecommunication companies often rely on 
assistance from the Federal Communications Commission and the 
Department of Agriculture to mitigate these high costs.
    Back in Washington, we have heard from small telecom 
providers that serve our rural areas that the recent 
improvements to these programs have helped. But as always, 
there is much more to be done, and we will work for those 
improvements to be made in our upcoming legislation.
    Over the last several years, Congress has enacted several 
bipartisan efforts to increase the amount of resources 
available to our communities, but the lack of clarity across 
federal regulation leaves many of these programs underutilized. 
Here in south central Pennsylvania, this must be addressed.
    As you can see today, we have the opportunity to consider 
an issue that directly impacts Americans in Pennsylvania, in 
Iowa, and around the country.
    Thank you to our witnesses for making your time to join us 
today, and to share your experiences and your insights. Today's 
hearing will bring your voices from the heart of rural south 
central Pennsylvania back to our Nation's capital. I look very 
much forward to this discussion, and I yield back.
    Chairwoman FINKENAUER. Thank you, Dr. Joyce. Dr. Joyce will 
introduce the witnesses.
    Mr. JOYCE. Thank you, Madam Chairwoman.
    Our first witness is Brandon Carson, the director of 
planning and community development of Southern Allegheny's 
Planning and Development Commission. Brandon and his team work 
to provide project and funding development assistance in the 
areas of infrastructure, transportation planning, and various 
other community and economic development initiatives. In 2016, 
Brandon was named to the Foremost Under 40 list by Pennsylvania 
Business Central, honoring central Pennsylvania's next 
generation of leaders. Mr. Carson is a graduate of the 
University of Pittsburgh.
    Our second witness is Mike Ross, who is the president of 
the Franklin Area Development Corporation from Chambersburg, 
Pennsylvania. Since its startup, he has been president in 1986. 
The corporation is responsible for initiating, for 
implementing, and promoting a comprehensive development plan 
that is a strategy for all of Franklin County. Prior to the 
FCADC, Mike spent more than 8 years with the Pennsylvania 
Department of Commerce where he held several positions. Mike 
has a B.A. in political science from Slippery Rock, and is a 
graduate of the Economic Development Institution from Oklahoma 
University.
    Our third witness is Mr. Anthony Angelini, a language arts 
and social studies teacher at New Oxford Middle School. He 
serves as the social studies department curriculum leader, new 
teacher mentor, and is an active member at the Conewago Valley 
Education Association. In addition to his classroom and 
leadership roles in the district, Tony is an adjunct instructor 
in the education department at Gettysburg College, his alma 
mater. He earned a B.A. degree from Gettysburg in 2006 and a 
master's degree in teaching from Shippensburg University in 
2014. In 2015, Mr. Angelini received the Milken Educator award, 
the Oscars of teachers, which pays tribute to exemplary 
elementary and secondary school faculty.
    Our final witness is Brock Widerman, president of the Adams 
County Farm Bureau. Brock's wife, Joy, is a herdsman for her 
family's farm, the JoBo Holstein Farm, which I have visited, 
and manages and operates 1,000 acres of land and nearly milks 
1,000 milk cows a day. The JoBo Farm hosts school field trips 
and an annual community picnic. On October 29, the farm will 
host a virtual tour for 7th to 12th graders here in Adams 
County.
    Thank you, Madam Chair. I yield back.
    Chairwoman FINKENAUER. Thank you, Dr. Joyce.
    Mr. Carson, you are now recognized for 5 minutes.

     STATEMENTS OF BRANDON CARSON, PLANNING AND COMMUNITY 
    DEVELOPMENT DIVISION, SOUTHERN ALLEGHENIES PLANNING AND 
  DEVELOPMENT COMMISSION, ALTOONA, PA; L. MICHAEL ROSS, EDP, 
 PRESIDENT, FCADC, CHAMBERSBURG, PA; ANTHONY ANGELINI, SOCIAL 
  STUDIES TEACHER, NEW OXFORD MIDDLE SCHOOL, CONEWAGO VALLEY 
SCHOOL DISTRICT, GETTYSBURG, PA; AND BROCK WIDERMAN, PRESIDENT, 
            ADAMS COUNTY FARM BUREAU, GETTYSBURG, PA

                  STATEMENT OF BRANDON CARSON

    Mr. CARSON. Good afternoon, Chairwoman Finkenauer, Ranking 
Member Dr. Joyce, and first, I would like to thank you for the 
opportunity to testify before you today. My name is Brandon 
Carson. I am the director of planning and community development 
at the Southern Alleghenies Planning Commission in Altoona, 
Pennsylvania.
    Addressing the lack of broadband connectivity in our six-
county region is a priority. We have been engaged on a number 
of fronts with hopes of advancing high speed deployment 
projects in the region.
    One of those efforts involved a fiber deployment in 
Somerset County, and I would like to share my experiences from 
that effort with you today.
    Beginning in 2016, we worked with the Somerset County Board 
of Commissioners on the proposed construction of a fiber 
network to connect the four industrial parks in the county. The 
hope was to secure additional funding to alleviate the 
financial burden of fiber expansion within the county, and 
facilitate the provision of much needed services to Somerset 
County businesses and residents.
    In 2017, the county was awarded over $1.5 million in 
funding from the Economic Development Administration, or EDA, 
and the Appalachian Regional Commission, which I will refer to 
as the ARC. Those funds were awarded to implement the proposed 
deployment in Somerset. Based on the EDA and ARC guidelines, 
the intent was for the county to competitively procure a vendor 
to construct and ultimately operate and maintain the fiber 
network via a 20-year lease. I have included additional details 
in my written testimony, but I will highlight a few of the 
issues we encountered when trying to utilize federal funding on 
this particular project.
    In general, the regulatory requirements of the traditional 
infrastructure projects that EDA in particular was accustomed 
to did not fit neatly within the confines of a fiber deployment 
project. As a result, EDA was forced to offer novel 
interpretations of the respective regulations, all in an effort 
to establish and define parameters for the oversight of the 
project.
    Firstly, EDA and ARC guidelines require the county to own 
the fiber once it was constructed. This became a major sticking 
point. Essentially, vendors were asked to put time, effort, and 
capital into developing infrastructure that they may never own. 
This was one of the biggest challenges when trying to advance 
the project, and it is understood that this ownership 
requirement is somewhat unique to EDA and ARC guidelines. For 
example, grants awarded through the FCC and USDA RUS program 
can go directly to a provider, even if that provider is a for-
profit entity. The guidelines for these programs were written 
with broadband infrastructure in mind, while the EDA and ARC 
regs were written for more traditional economic development 
efforts like sewer, water, and road improvement projects, 
infrastructure that is typically owned by a government entity. 
We know that is not usually the case with broadband 
infrastructure.
    In addition to the ownership issue, there were challenges 
with one of the restrictions in the ARC's code. Specifically, 
Section 8.4 restrictions on assistance that prohibits ARC from 
investing in projects that promote unfair competition between 
businesses within the same immediate service area. During the 
request for proposal process, or RFP, an incumbent provider in 
the region contacted Somerset County to advise that they were 
already providing broadband services in one or more of the 
targeted industrial parks. Due to the restriction in the ARC's 
code, this ultimately halted the ARC and EDA investments that 
we had worked so hard to secure.
    When interviewing businesses located in the parks about 
their existing broadband service, it was evident that there 
were real concerns about the existing reliability and 
affordability of those services that were being offered. In 
these situations, ARC is relying on the incumbent provider's 
data as it relates to the areas served and speeds being 
offered. Coverage maps are not always reliable, and speeds are 
often overstated. Competition is necessary in order to 
adequately serve residents and businesses in these rural areas; 
however, ARC does not have any guidance from Congress that 
suggests subsidizing a competitor is allowable under their 
current code.
    Moving forward, Congress may consider reviewing the 
ownership requirement for broadband infrastructure and 
investments implemented by EDA and ARC specifically. In 
addition, authoring more clear and concise guidance for EDA and 
ARC funded broadband projects would allow grantees to plan for 
and better navigate the federal regulations to successfully 
complete high-speed deployments.
    Lastly, the unfair competition language in the ARC's code 
is broad and open to interpretation. There is an opportunity to 
set additional parameters to provide clarity and offer ARC with 
guidance on better ways to implement these types of projects 
when there are incumbent providers offering services in 
portions of the proposed coverage area.
    In summary, EDA and ARC have a unique opportunity to work 
in concert with other federal agencies to improve broadband 
connectivity to the rural parts of the country that so badly 
need these subsidies. However, in order to do so, the federal 
regulations they must abide by will need to be adapted to 
better fit the current needs.
    Thank you again for the opportunity to share my experience 
on this particular project, and I look forward to any questions 
you may have after.
    Chairwoman FINKENAUER. Thank you, Mr. Carson. We appreciate 
it.
    Mr. Ross, you now have 5 minutes.

                  STATEMENT OF L. MICHAEL ROSS

    Mr. ROSS. All right. Madam Chairwoman Finkenauer and 
Ranking Member Dr. Joyce, I am grateful for the opportunity to 
provide testimony today given the correlation of broadband 
technology to economic development. My name is Mike Ross and I 
am president of the Franklin County Area Development 
Corporation. FCADC is our acronym.
    As a matter of background, the FCADC is a 501(c)(6) 
nonprofit corporation charged with formulating, implementing, 
and promoting a comprehensive Franklin County-wide economic 
development strategy that nourished plant growth and family 
sustainable employment opportunities. The strategy is based on 
the retention and expansion of existing companies, the 
selection and attraction of new industries, and the startup of 
new businesses. Over the past 33 years, our office has 
facilitated 765 projects that have resulted in more than $2 
billion of new capital investments in Franklin County. This 
investment has impacted more than 50,000 jobs.
    Franklin County is among the fastest growing counties in 
Pennsylvania. Strategically located on the I-81 corridor and 
with easy access to Interstates 78, 76, and 70, the county is 
within a one-day drive of 50 percent of North American 
population, including the major population centers in the 
Midwest, Northeast, and Canada. Additionally, Franklin County 
is within 75 minutes of the port of Baltimore, and three hours 
from the port of Philadelphia. When combined with two class one 
intermodal terminals, Franklin County is an ideal location for 
myriad of industries, including manufacturing, transportation, 
logistics, and defense. Target distribution center, Ulta Inc., 
Staples distribution, and Proctor & Gamble all have established 
logistic centers in the county. Franklin County is also home to 
manufacturers such as Manitowoc Crane Group, Volvo Construction 
Equipment, JLG Industries, Epiroc Drilling Tools, and Johnson 
Controls, as well as the Letterkenny Army Depot, to name a few. 
In addition, Franklin County is among the top five agricultural 
producing counties in the Commonwealth.
    Infrastructure is the foundation of economic development. 
Retaining, attracting, and/or supporting the start-up of 
quality employers requires the availability of a full range of 
public utilities, including telecommunications and broadband 
technology. I have often remarked that economic development is 
not possible unless you can flush a toilet. The same can be 
true for broadband internet. Broadband needs to be considered 
as part of our national public infrastructure, the same as 
roads, water, sewer, ports, airports, rail networks, and a 
reliable electric grid.
    To state the obvious, we live in a globally connected 
economy and four our companies to successfully compete, 
especially those in rural America, they need to have high speed 
internet and broadband connectivity. The transfer of medical as 
well as technical documents, fabrication drawings and video 
conferencing require high speed internet and broadband 
connectivity. As I mentioned previously, Franklin county is 
home to some of the most widely recognized manufacturers in the 
world, and their ability to connect to their other locations is 
critical. Moreover, as our national conversation has shifted to 
the importance of education and workforce development, to 
include online and distance learning, high speed internet has 
become essential.
    As it stands now, the lack of broadband capacity in rural 
settings creates a disparity in educational opportunities and 
outcomes. According to a June 2019 report from the Center for 
Rural Pennsylvania entitled ``Broadband Availability and Access 
in Rural Pennsylvania'', over 800,000 Pennsylvanians do not 
have access to FCC levels of broadband connectivity, classified 
as download speeds of a minimum of 25 megabytes per second.
    Locally, our download speeds are abysmal, according to the 
report. Download speeds in our area range from a low of 5.9 
megabytes per second in Adams County, where we are right now, 
and which is home to the Gettysburg Battlefield and Gettysburg 
College, to 14 megabytes per second in Blair County, home of 
Congressman Joyce. The point is, all of this is half--more 
than--in Blair County, we are only half of where we should be.
    None of the speeds are acceptable. It is important to note 
that Governor Wolf, in collaboration with the Pennsylvania 
Legislature, has created a bipartisan broadband initiative 
whose goal is to address the challenges faced by rural 
Pennsylvania. Launched in 2018, the Pennsylvania Broadband 
Investment Incentive Program has made available $35 million in 
financial assistance to private providers to expand service.
    So, to recap, the availability of high-speed broadband 
internet in rural America is critical to a vibrant, growing 
economy and development of a highly skilled workforce that is 
prepared to compete in an ever-increasingly connected global 
economy.
    So again, thank you for the opportunity to testify today.
    Chairwoman FINKENAUER. Thank you so much, Mr. Ross.
    And with that, Mr. Angelini will have 5 minutes.

                 STATEMENT OF ANTHONY ANGELINI

    Mr. ANGELINI. Okay. Good afternoon, Chairwoman Finkenauer 
and Congressman Joyce. I am eager to speak about connecting our 
communities, our students, and their families in order to close 
the digital divide for a better future.
    As an English and Social Studies teacher for 11 years at 
New Oxford Middle School, it is a particular honor to be here. 
In those two subjects, we emphasize the power of language to 
create an impact and the responsibility we all have to 
strengthen our communities through civic action. I even brought 
one of my students, Sam, back there along with me to be a part 
of this as well.
    Conewago Valley is centered around New Oxford. Our 
community does not have a YMCA. Our library is only open until 
5:00 three nights a week. There is no Panera Bread. Forty-four 
percent of our students qualify for free or reduced lunch.
    For a significant portion of our students, then, the 
district offers the only reliable access to high speed 
internet. Even there, the FCC's E-Rate Program, which provides 
discounts to schools like ours, has been instrumental in 
strengthening access. In fact, five years ago we had only a 50 
megabytes per second pipeline for the 4,000 students of our 
district. One of our IT staff had me imagine inviting my 2,000 
closest friends and their iPads over to watch Netflix. Our 
network was basically attempting to do the same. In a typical 
week, service failed at least twice. Teachers basically 
abandoned lessons that had integrated tech. In the moment, it 
felt like time was moving backwards.
    With the E-Rate Program, careful budgeting, and support 
from governmental grants, the district currently has a 400 
megabytes per second connection. We are in line with the FCC's 
old target to support streaming video, online collaboration, 
and other digital learning. However, we still fall short of the 
FCC's current target of 1 gigabyte for every 1,000 students.
    In our community, the lack of equitable access is certainly 
a harsh reality. We have students that do not have broadband 
access at home. Those students face significant consequences. 
Drawing from my experience, I hope to highlight three examples 
of why closing this gap is so important: First, to ensure that 
all of our students have access to the learning opportunities 
available; second, to engage families with school; and third, 
to ready our district for changes in policy ahead.
    I am a member of our district's Road to Relevance team, 
which we often call R2R. It is a 10-year plan to ensure that 
our students are prepared to thrive today and excel tomorrow in 
a changing global society. As part of that, our high school 
students, like Sam, were assigned an iPad this year. Next year, 
1:1 will expand to our middle school. To amplify the learning, 
we rely on those tools and learning platforms like Schoology, 
which are digital classrooms that stretch beyond our school 
walls.
    One common strategy we use is what is known as a flipped 
classroom model. Students are assigned at-home video lessons, 
and then class time is used more for application, 
collaboration, and higher-level thinking. Alternatively, I 
often use those videos to support struggling students after a 
lesson ends. Just last week, students were writing position 
papers. I recorded lessons on MLA citations and the conventions 
of quotations, neither of which are easy for 12-year-olds. For 
students, these resources give them access to lessons at their 
fingertips. For those without access, the same resources are 
out of reach.
    Students often come to my room as soon as they get off the 
bus in the morning, during lunch, or after school so that they 
can complete those assignments when they cannot at home. For 
13-year-olds, however, transportation is a barrier. Our school 
right now is looking at revising our schedule to include a 
resource period where they can have access to devices during 
the school day, but such a change comes with cost. Every minute 
given to the resource period is taking away from time for 
language arts, math, or science.
    Access impacts our students' families and their ability to 
connect as well. Next month, we will host parent conferences. 
It is an invaluable chance to strengthen relationships with 
parents and strengthen the bonds between schools and home. 
Families fiercely compete for the slots that take place after 
5:00 p.m. As with so much of our lives, scheduling is now done 
online through our digital gradebook. Though parents can easily 
track grades with the phone app, the mobile version has its 
limits. Viewing a grade is straightforward. Scheduling a 
conference is not. It is the parents with access who can best 
navigate the program.
    Common Sense Media reports that families making over 
$100,000 as a household were two and a half times more likely 
to have a laptop and broadband access than those making under 
$35,000. Within the first hours, almost all of the prime slots 
for our conferences are claimed by the parents of students 
already supported by extensive social and cultural capital. The 
families who most need a strong bridge to the school are left 
behind.
    Finally, reliable access to digital resources is a systemic 
issue that shapes policy decisions as well. Pennsylvania's Act 
64 of 2019 allows schools to use flexible instructional days. 
The law basically defines these as days when instruction is 
delivered outside of school when normal operations are not 
possible, due to weather, building damage, or other temporary 
events. Passed with the best of intentions, the law has the 
potential to widen the digital gap for our students. The 
assumption of Act 64 is that students can access these digital 
tools at home. It must be at home, since the most common cause 
is expected to be snow, and it is not reasonable to expect 
students to travel to a place with Wi-Fi. Further, many of my 
students are not yet ready to be home alone. Instead, they stay 
with caregivers, especially grandparents, who may be less 
likely to have reliable access, particularly when responsible 
for several children.
    In anticipation of concerns, many districts have already 
prepared paper lessons to go home in advance. For example, they 
might give a bag distributed to a student the day before a 
storm. Yet those lessons are often disconnected from the 
curriculum and involve tasks that are far less engaging, far 
less interactive, and far more likely to be below grade level.
    The lack of reliable access has an impact on students, 
their families, and public policy relevant to schools. I saw 
that impact last week. I will experience it next month with 
parent conferences, and I will need to deal with it in the 
coming years with state policy.
    Your hearing is aptly named. We want all students to be 
able to reap the benefits of the digital age. Digital resources 
offer opportunities for students and have the potential to open 
wide the doors for future success. Policymakers can play a 
critical role in leveling the field and eliminating the 
barriers to that future as you consider building on the 
bipartisan efforts in Congress that have already provided 
essential resources to our schools and the communities they 
serve.
    Thank you.
    Chairwoman FINKENAUER. Thank you, Mr. Angelini, and with 
that, I will yield to Mr. Widerman for 5 minutes. Did I say 
your last name correctly?
    Mr. WIDERMAN. Widerman.
    Chairwoman FINKENAUER. Widerman, okay. Thank you so much.

                  STATEMENT OF BROCK WIDERMAN

    Mr. WIDERMAN. Okay. Chairwoman Finkenauer, Ranking Member 
Joyce, thank you for inviting me to speak on rural broadband 
and agriculture. My name is Brock Widerman. I am the president 
of Adams County Farm Bureau. My wife, Joy, is a partner/owner 
of JoBo Holstein Farm, a family dairy and crop farm in 
Gettysburg. I work on the farm as well, performing field work 
and mechanical repairs. I offer today's testimony on behalf of 
Pennsylvania Farm Bureau, the state's largest general farm 
organization. My written testimony provides an expanded 
perspective of the highlights I will cover during the hearing.
    Broadband is no longer a luxury; it is a necessity. Having 
spent my entire life in agriculture, growing up on a layer hen 
operation before joining JoBo Holstein farm. I have seen the 
growing importance of technology. Now technology is critical to 
our everyday lives and fixed and mobile broadband is absolutely 
essential to modern agricultural operations.
    For those of us who have generally reliable broadband 
access, it is sometimes easy to forget the role it plays in our 
everyday lives. It is just how we do our jobs. As an example, 
as our equipment becomes more advanced, repairing that 
equipment becomes increasingly challenging. On my farm, I can't 
always run down to the local store for parts. I have often used 
the internet, particularly my phone, to research how to repair 
equipment, order parts, or determine which stores may have the 
needed parts, and for our more high-tech equipment, utilized 
tech support from overseas. Clicking a few buttons from my 
phone can often streamline a process that once may have 
involved calling around to multiple stores or driving long 
distances to locate parts and information needed to make a 
repair.
    But not all farmers have reliable broadband. Bethany and 
Adam Coursen, farmers near State College, invested in robotic 
milking devices to milk their cows, and also devices that 
collected herd health. However, the lack of high-speed internet 
has made it difficult to get the needed software upgrades and 
prevents technicians from working remotely on their system. 
They have been able to devise work arounds, such as cell phone 
hotspot, but that is not how the system was designed.
    Rural broadband is also essential for the quality of life 
of rural Americans. High speed internet access allows 
individuals to reach healthcare, educational services, 
government agencies, and new business opportunities. Recently, 
my two oldest children received iPads from their schools and 
are expected to complete assignments on them. While my children 
can complete their assignments at home, others aren't so 
fortunate. David Bentrem, my fellow Farm Bureau member, whose 
farm is in Washington County, lacks broadband access. He has to 
take his daughter to the local McDonald's so she can obtain 
internet access to complete her school assignments.
    These are not isolated incidents. Twenty-nine percent of 
rural Americans lack access to broadband. In Pennsylvania, 
roughly 18 percent of rural citizens lack access to the 
internet, or only have low speed options, and there are serious 
flaws in the federally available maps and data collection 
techniques, which hinders the availability to direct federal 
funds to broadband buildout.
    Given the recent financial challenges of farm economy, we 
must utilize all the tools available to agriculture, especially 
broadband technology. In fact, USDA found that if access to 
broadband and adoption of digital agricultural technology 
matched demand, U.S. agriculture would realize benefits 
amounting to $64.5 billion annually.
    The Farm Bureau appreciates the Subcommittee's interest in 
this issue, and we look forward to working with you to make 
sure all of agriculture has access to reliable fixed and mobile 
broadband. Thank you.
    Chairwoman FINKENAUER. Thank you so much, Mr. Widerman.
    Again, we are so grateful to have you all here today, and 
we will now do a couple rounds of questions. I will have 5 
minutes to ask questions, and then Dr. Joyce will have 5 
minutes, and we will do that all over again as well, time 
permitting. Sound good?
    All right. Mr. Widerman--no. I keep saying it wrong.
    Mr. WIDERMAN. Widerman.
    Chairwoman FINKENAUER. Widerman. Thank you again so much 
for being here. You have a farm with over 1,000 milking cows. I 
always say that I grew up in a town with more cows than people, 
but your farm itself has more cows than my entire town.
    One thing I am curious about is how broadband access 
impacts you personally. I know you also touched on how some of 
your friends don't really have access. What are the options for 
you and your wife for Internet service?
    Mr. WIDERMAN. Currently we----
    Chairwoman FINKENAUER. Just see how you do.
    Mr. WIDERMAN. Currently we have a provider that provides us 
internet, and then we actually spent quite a considerable 
amount of money on our farm to----
    Chairwoman FINKENAUER. Okay.
    Mr. WIDERMAN.--bounce that around the farm, because it did 
not reach everywhere we needed it to reach in the various 
areas.
    Chairwoman FINKENAUER. Interesting.
    Mr. WIDERMAN. I do have a friend that works for AG Com, a 
large feed mill in the area, and he lives 15 miles from here, 
and all of his--I mean, basically he is in charge of 
maintenance and all the IT work at AG Com, which is how it all 
works. He has very poor internet access. I mean, he is able to 
do his job from home. He can diagnose and pinpoint problems, 
but he says that nothing else in the house can be running while 
he is doing that----
    Chairwoman FINKENAUER. Oh, wow.
    Mr. WIDERMAN.--or it ruins his connection that he is not 
able to perform his job. So, that is a personal account that, 
you know, I contacted him the other day and spoke with him 
about it, and he said yeah, it is an issue. I mean, he says the 
cost of it to do anything different--and basically his provider 
pretty much told him you are on your own. I mean, we are not 
going to run it down your road until you have more people on 
your road. So----
    Chairwoman FINKENAUER. Wow. We had the FCC Commissioner 
come out to my district. She came out to a farm and we were 
showing her some of the newer precision ag equipment, and 
talking about why it is important. We had a couple farmers 
there as well. It was a father/son duo, bringing the 
perspective of the next generation of farmers. They are pork 
producers, and the son explained how they know exactly the 
margins on every pound, because of the data on their iPad. He 
pulls it up to show the Commissioner, and as he is pulling it 
up, it won't load. It was a really good example of why rural 
broadband access is an issue.
    And our farmers don't just need technology on the farm when 
they are there they need it when they are out and about. 
Growing up around farms, I know farming is 24/7. With 
technology, farmers have that freedom to be out and able to 
check in on the operation, What does that freedom mean for your 
business? Does that become more difficult if you don't have 
reliable Internet access?
    Mr. WIDERMAN. Actually, my wife is the herdsman at the 
farm, and as far as herd health goes, all that is on the 
internet.
    Chairwoman FINKENAUER. Yeah.
    Mr. WIDERMAN. I mean, their dairy plan that they have is 
all run via the internet. So, if it is down and say, my wife 
and I are away and there is a problem with a cow, she can't 
look up any past history, milk records, anything like that to 
determine whether--what the next step with that cow might be.
    Chairwoman FINKENAUER. What would that cost you if that 
goes down, you can't get that information, and something 
happens?
    Mr. WIDERMAN. Well, if it is the life of the cow----
    I mean, you can say $2,000 right there without--I mean, and 
that doesn't put any value on the milk that you are losing from 
her or anything.
    So there is--the costs are never-ending when it comes to, 
you know, the health of a cow and keeping going.
    Chairwoman FINKENAUER. Absolutely. I think that folks don't 
necessarily understand all the time how important that is. So, 
thank you for that.
    I have just a few more minutes, and then I will hand it 
over to Dr. Joyce.
    So, Mr. Angelini, you are dealing with a lack of rural 
broadband access as well on a number of levels, just like our 
teachers in Iowa. For one, you have to deal with homework a 
little bit differently. What, in your perspective, does 
internet access mean for kids' futures? What kind of 
disadvantage does this put kids at if they don't have access, 
whether it is at home or whether it is unreliable at school 
compared to kids in other places in the country that have 
broadband access?
    Mr. ANGELINI. Yeah. I think the phrase I like the most is 
the idea of the digital divide between our students who have 
and the students who have not. We experience daily the students 
who come in able to use a keyboard independently and the 
students who can't because of what they are able to do at home, 
and if we aren't able to intervene on that and close the gap, 
we are keeping some students at arm's length and pushing others 
further along to success. And that is where we need all the 
help we can get. There are so many factors beyond our control 
in our students' lives. Being able to provide them with the 
tools and internet access they need to learn is something that 
is within our control. And so, we are doing everything we can 
to manage it.
    Chairwoman FINKENAUER. Thank you so much for your passion. 
It is admirable, and we need more of you across the country.
    With that, I am out of time, so I will yield to Dr. Joyce 
for 5 minutes.
    Mr. JOYCE. Thank you, Chairwoman Finkenauer.
    First of all, thank you to Brock Widerman for being here. 
You know of our commitment to agriculture, particularly to the 
dairy industry. Thank you, Mr. Tony Angelini, for the 
educational perspective.
    But I am going to pivot. I am going to pivot to the other 
side of the table at this point in time, because rural 
development, which is part of this Subcommittee, includes your 
ability to step forward and to talk to us today about the need 
for extensive rural broadband.
    So, Mike Ross, I am going to start with you. I am going to 
ask you if expanding rural broadband in Franklin, in Adams, in 
Cumberland County, would you see additional economic benefits 
to the community? Could you quantitate that as well?
    Mr. ROSS. I don't know if I can quantitate it at this 
point. There clearly would be additional economic development 
that would take place. I think that broadband has become part 
of the site location analysis that--when I started this role 
that nobody even knew what we were talking about. But today, it 
is clearly part of the analysis.
    Interestingly, one of the places where we have difficulty 
getting broadband capabilities is at Letterkenny, to that part 
of the depot that has been privatized. They struggle with 
getting high speed internet, and that has been impactful to all 
the businesses locating out there, and to some extent, has 
impeded some of the development to--that could have taken place 
there.
    But I think that one of the things--one point I would like 
to tie to Mr. Angelini, and he is dead on. This divide is 
significant. I don't think when we look at Pennsylvania as an 
example that we realize that Pennsylvania is one of the most 
rural states in the country, and so when we go to places--when 
you think about Penn State, there is a lot of rural America 
between here and State College. So when you get there, it--you 
are kind of an oasis in the desert. But there is a lot of 
challenges--and so you have young people who don't have the 
same opportunities, and so they are not nearly as well prepared 
to enter the workplace. And that right now is critical, 
economic development and workforce development and having 
people prepared, and we need more--we need folks to have 
greater opportunities to be connected.
    Mr. JOYCE. Thank you for that. I think you brought an 
interesting point up, Mike, that we should start, because 
Chairwoman Finkenauer and I were discussing the extensive 
nature--and this is going to lead into the question for Mr. 
Carson. Pennsylvania 13, which is a new district by the 
redistricting standards, is here in Adams County and includes 
part of Cumberland County and Franklin County, where you come 
from, Mike Ross. But it extends the entirety over 10 counties, 
5 of them on the Maryland border, 5 of them north, partial 
counties for some of them, Cumberland and Westmoreland. But it 
includes over 8,000 farms to your point, very much similar to 
our agricultural roots with the Chairwoman and I. And our 
understanding and perhaps our ability to work together on these 
issues that we were really put here with a purpose, and work 
shoulder to shoulder trying to outline and make improvements in 
those areas.
    But you talked about--Mr. Carson, you talked about Somerset 
County, which is on the western border of Pennsylvania 13, and 
talked about trying to establish--and the obstacles that you 
went through establishing rural broadband, and made, you know, 
some suggestions on how to make those improvements with 
legislation in the future.
    You are an economic developer. You are a guy with vision. 
Talk to us about how rural broadband, recognizing the extensive 
nature of almost 150 miles east to west in Pennsylvania 13--
talk to us about what a more improved, a more developed rural 
broadband system would mean in your world.
    Mr. CARSON. Thank you for the question, and we are 
embarking on just that. Given the issues that we have had in 
Somerset with that fiber project, we are going back--taking a 
couple steps back actually, and right now, we were just awarded 
some funding from ARC to complete an eight county 
infrastructure assessment that will look at the gaps in 
broadband services in our region, opportunities for 
deployments, the vertical assets that might be in place for 
certain wireless deployments in the region, and community 
bandwidth needs are some of the work elements that we are 
looking at for this feasibility study.
    That is going to move forward later this fall into next 
spring, but the hope is we want to use that investigation to 
form a broadband cooperative, which we think is going to be 
absolutely necessary to advance some of these rural 
deployments. With what we ran into in Somerset with the 
incumbent providers, it was certainly an eye opener for us in 
terms of how cutthroat the industry can be. So, we see a 
cooperative as an opportunity to use state and federal funds 
funneled down through a cooperative to partner with those 
smaller providers in the region to offer services to those most 
rural residents and businesses that need the service that they 
currently are not getting.
    Mr. JOYCE. Thank you. Thank you for your answer.
    Mr. Angelini, I am going to go back to the educators, and I 
think for the purpose of the record, that I think Mr. 
Widerman's children who have iPads might be students of yours.
    Mr. ANGELINI. They are. They were never my students, but 
they came through the district.
    Mr. JOYCE. Students of your system. So, you talked about 
how important it is, and let me--I have a son who has autism, 
and keeping in contact with teachers throughout his education 
was very important. But now that is done today very frequently 
through internet connections, through ability to email and be 
on boards to talk to people. Tell me how students with 
disadvantages who don't have those--who are academically 
disadvantaged and don't have access to broadband, does that 
create additional problems for these students?
    Mr. ANGELINI. Absolutely. You know, one of the things we 
fear most is a student who is making a choice between exceeding 
their parents' data plan, because it is their main source of 
internet access, and doing their homework assignment. And we 
are not just talking about students reading an email from a 
teacher anymore. As we move forward, they are interacting with 
streaming videos. They are creating media that they need to 
upload. They are going through a host of different digital 
resources, and all of those take more than just a few small 
bytes of data that is coming through a cell phone. And the 
primary access point for a lot of our students and their 
families is the phone. So, anything that needs to go beyond 
that, you really start to see that digital divide.
    And when it comes to parent communication it is one thing 
for me to be able to email a parent. It is a whole other thing 
for me to be able to send a newsletter to a parent with 
interactive videos that they can use on how to use the 
Gradebook program or links to the different interactive 
presentations we are doing in class, so that they can ask their 
children how was the day, and they can get more of an answer 
than just ``good.'' They can actually look and see what their 
students were doing that day and follow up with them 
individually. And so, some of our students have parents who can 
do that, and others don't, and it makes a huge difference.
    Mr. JOYCE. Thank you, Mr. Angelini, and I yield back.
    Chairwoman FINKENAUER. Thank you, Dr. Joyce. I will 
recognize myself for another 5 minutes, and then will yield 
back to Dr. Joyce. I know we are running over on time, so if 
anybody does have to exit, no one will be offended. But we will 
keep going here.
    Mr. Ross, you said something interesting in your testimony. 
You said you can't start a business if you can't flush a 
toilet, right?
    Mr. ROSS. Correct.
    Chairwoman FINKENAUER. It immediately made me think about a 
time I was back in Iowa and talking to one of our smaller 
Internet service providers. This provider is trying really hard 
to get into towns where it looks like there is access, but 
there is not. One of the things they heard in a small town was 
it is easier right now for us to sell a house if it doesn't 
have indoor plumbing than it would be if it doesn't have access 
to the Internet. Obviously you need both, but it just 
underscores how important Internet access is and how 
interesting it was what you said.
    Can you tell me an instance when poor access to Internet 
has stifled an opportunity for new business growth or economic 
development? Have you seen somebody wanting to come into a town 
and then backing out due to Internet access or reliability 
issues?
    Mr. ROSS. We have had a situation where we have had a 
couple of companies--and to put it in context for you--again, I 
am going to go back to the Letterkenny Army Depot. We have a 
national fully functioning depot who is contributing to our 
national defense efforts every day, but it got realigned in 
1995. And so, part of it has been converted to a private sector 
industrial park, and surprisingly, we do not have high speed 
internet out there. And we have had several companies who have 
tried--who have attempted to locate or expand and that they 
simply--they have backed away. They don't have it, and in fact, 
we were just having the conversation, I know, out there about a 
week ago, and so we are hoping to get Comcast out there. And 
every time we--Comcast does have high speed capabilities, but 
we have been unsuccessful in our efforts to get them to go out 
there. And again, it becomes--you know, economies of scale come 
into play unfortunately where some of the providers simply say 
there is not enough demand, and the cost for us to be out there 
is too expensive and we are not going to get the return we 
desire right now.
    Chairwoman FINKENAUER. Yeah, the ripple effect.
    Mr. ROSS. Yeah. But so it is interesting, and I can 
appreciate the comment from your friend in Iowa saying that we 
could sell--give them outdoor plumbing. That is easier to do 
than not have internet. And it really does--and I apologize for 
the length of this, but this whole idea of workforce 
development and when you see educators where you have children 
who have access and those that don't, and as we go forward, it 
creates a real divide as they prepare to enter post-secondary 
education or the workforce. And it is a challenge for us.
    Chairwoman FINKENAUER. Absolutely, especially when we have 
workforce needs across the country.
    Mr. ROSS. All across the country.
    Chairwoman FINKENAUER. Yeah, this is not something we can 
afford to be falling behind on.
    Mr. Carson, I know you mentioned that the Economic 
Development Administration and the Appalachian Region 
Commission have a really unique opportunity to work with other 
federal agencies to improve broadband connectivity, but that 
these programs need to be changed. You already pointed out some 
very specific issues with the grants in your testimony, but can 
you talk about any other aspects of these programs that need to 
be changed or feedback that you want to make sure that we leave 
here with today?
    Mr. CARSON. Yeah. I think ultimately it comes down to the 
fact that both ARC and EDA, who are very close partners with 
organizations like ours, Southern Alleghenies Planning and 
Development Commission is an economic development district in 
partnership with both EDA and ARC. So, we work closely with 
these guys.
    I want to make sure that I convey--I did speak with both of 
them in advance about the testimony I was going to provide. I 
want to convey to the Subcommittee that both of those agencies 
wanted this project to work. They both invested a lot of time 
and effort into figuring out a way to interpret the guidelines 
so that we could advance the project. In the end, there was 
still too much red tape, and I know there was a lot of 
frustration from the folks at the county, because ultimately 
they had invested about $200,000 in consulting services to get 
the RFP ready and to get the project to the point where it was 
ready to be bid. And those costs were not eligible as part of 
the grant. So, when you introduce all this red tape and all 
this uncertainty after the fact, if that guidance was clear and 
concise on the front end and there was a good understanding of 
what was to be expected, you know, via the federal funds, I 
think that we would have had a successful project. I think that 
we would have had vendors that were interested in bidding and 
we would have a network that was very close to being up and 
running. Instead, here we are about 3 years later, and it looks 
like, you know, the grants are going to be terminated.
    So, it is somewhat frustrating, but we are looking at it as 
an opportunity to try to learn from that experience and do 
everything we can to help ARC and EDA make some of those 
changes. Because they get it. They get that as their code is 
written, it is problematic. But when you are looking at 
wireless deployments, which oftentimes in some of these more 
rural areas that ARC invests in, wireless deployments are part 
of the solution. Well, if you have an incumbent provider that 
is saying we serve, you know, 20 percent of that particular 10-
mile radius that the wireless deployment is going to serve, and 
the incumbent has the ability to halt that project due to that 
overlap in service areas, that is problematic. I don't know how 
we get to where we need to be with funders like ARC if they 
can't invest in those types of projects.
    Chairwoman FINKENAUER. Thank you so much, Mr. Carson. I 
appreciate it.
    With that, my time has expired so I will yield to Dr. Joyce 
for one more round of questions.
    Mr. JOYCE. Thank you, Chairwoman Finkenauer. I appreciate 
that.
    I am going to just kind of give a summary, and then I am 
going to ask for each of your take away messages for Chairwoman 
Finkenauer and me to return to Washington with. The important--
I always look for that. What is the message that if you have us 
to allow to take back to our Subcommittee and to our Committee 
at large, we came here to hear that.
    Just 10 months ago, I transitioned from someone who cared 
for several hundred people in, you know, south central 
Pennsylvania, and I did that as a doctor proudly for over 25 
years. But now I am caring for 700, 800,000 people at a 
different level. And each and every one of you brought us an 
incredible message.
    Mr. Widerman, I am so supportive of the dairy industry and 
what you do, and I am cognizant of the price per hundred and 
how hard it is for the dairy industry to survive and thrive, 
and this ability to understand where rural broadband can 
enhance your productivity, make your lives better, those people 
who provide us with affordable, nutritious food, that is what I 
am going to ask--I am going to come back and ask you to give me 
a take home message regarding that, or take back to Washington.
    Mr. Angelini, I think as an educator, you brought 
significance to this meeting. You talked to us about the 
ability to educate, but allow parents to be connected and work 
with their students at home. We salute you for doing that, for 
bringing those issues to us and talking to us, interrupting 
your academic day. I am sure the students are enjoying that 
perhaps more than you are. But bringing that and talking to us, 
because as you realize, this is an issue that affects all of 
us. This is a bipartisan issue. You have two people here who 
work well together. You are not going to see this on the 7 
o'clock news tonight, because there is no hijinks. There is no 
drama here today. There are people that are committed to making 
our lives, your lives better.
    Mike Ross, the ability for industry to improve and survive, 
I need a take home message. I need a take back to Washington 
message in that regard, because the ability to provide more 
jobs and more industry is so important throughout south central 
Pennsylvania, and that is your skillset. That is what is in 
your toolbelt, and we need to hear that message as well.
    Mr. Carson, from my hometown from Blair County, but 
covering a substantial part of this region. The economic 
development, the future of south central Pennsylvania, the 
future of Pennsylvania 13 rests a lot on your shoulders as 
well. And so, I have teed this up. I want each one of you--this 
is the final message that you have an opportunity to take 
back--to give us to take back to Washington.
    So, Mr. Widerman, I will start with you.
    Mr. WIDERMAN. I would just like to say that, you know, as 
far as agriculture goes or rural broadband, with profit margins 
not being where we think they should be or being so tight, 
rural broadband is extremely important to us because time is 
money. You know, from one day to the next could mean an 
incredible profit or loss, in our opinion. So, you know, rural 
broadband is extremely important, and goes all the way down the 
line to education, you know. Our next generation needs to be 
educated on rural broadband and in the technological age.
    So, it is extremely important that it be accessible to 
everybody, you know, as we continue down the road.
    Mr. JOYCE. Thank you, and thank you for being here.
    Mr. Angelini?
    Mr. ANGELINI. Dr. Joyce, you mentioned at the beginning 
that I am part of the Milken Educator Network. I am part of the 
Pennsylvania State Education Association and I sit on one of 
their statewide committees. Both of those help me to hear a lot 
about what is happening in other parts of the state. More than 
that, I grew up in a fairly wealthy suburb of Pittsburgh, in 
the Hampton area near North Allegheny. I teach at Gettysburg 
College, which has a large number of very wealthy students who 
have a huge number of resources at their disposal. Part of that 
is systematic. Part of that is generational. We want to ensure 
that all of our students at New Oxford and across southern 
Pennsylvania have those same opportunities that I had as a 
student that they have at Gettysburg College, and that I get to 
see and hear across the state. And that begins with supporting 
the districts themselves, but more than that, with the families 
who live in them.
    And so, whatever the Committee can do to support that 
effort, helps to level that playing field and give our students 
a chance to build it up for all of us.
    Mr. JOYCE. Thank you, Mr. Angelini.
    Mr. ANGELINI. Thank you.
    Mr. JOYCE. Mr. Ross?
    Mr. ROSS. First, what I would like to do is I would like to 
thank you and the Chairwoman for the way this has been 
conducted. And I mean, it is a breath of fresh air to see a 
bipartisan Committee being handled so civilly and in the 
interest of all of us, so thank you for that.
    And I would like to--and the fact that you recognize that 
this is a problem, and that it needs to be addressed and it 
impacts every industry sector. It impacts education and 
workforce development. And as we look--and our economy has 
grown, but our only way that we can support the growth that is 
taking place, we need the infrastructure to be able to do that, 
and we don't have it right now. And so, anything that you can 
do as part of a broader infrastructure package to include 
broadband in it would be welcome across America.
    Mr. JOYCE. Thank you, Mike. Thank you for being here.
    Mr. Carson?
    Mr. CARSON. Thank you, Dr. Joyce.
    A big part of my world is finding funding sources, helping 
folks on the ground in the region that don't have a lot of 
capacity, in many instances, to secure those funding resources 
and ultimately implement successful projects. That is at the 
core of what we do at Southern Alleghenies. And every day, I 
see quite a few funding opportunities as it relates to 
broadband deployment and broadband infrastructure. There are a 
plethora of opportunities out there on both the state and 
federal level.
    We have heard from the other witnesses today on the need. I 
think we can all agree that the need is certainly there. So, I 
find myself and the Commission finds itself somewhere in the 
middle. We are hearing about the need. We are helping to 
further investigate and define that need through our 
feasibility study that we are moving forward with in the next 
few months.
    But then we find ourselves not being able to--we can access 
a lot of the funding that I have mentioned, as we did with the 
ARC and EDA project in Somerset. Honestly, we haven't pursued 
any additional projects when there are funds to be had for 
these types of projects because of the fact that we don't think 
we can use it. We think that ownership is still going to be a 
huge concern whenever you are trying to partner with the 
private sector to subsidize some of these rural networks. If 
that issue alone can't be resolved in some way, I don't know 
how we put these dollars on the ground. That is one reason that 
we are looking at the cooperative model in the region, and I am 
hoping that gives us a new angle, a new strategy to help to 
deploy some of these important projects.
    Mr. JOYCE. Thank you. That is concise. I appreciate that, 
Mr. Carson.
    I yield.
    Chairwoman FINKENAUER. Thank you, Dr. Joyce, and I again 
want to thank every single one of you for being here today and 
taking time out of your busy schedules. I know time is money, 
especially on the farm. It means a lot that you all took time 
to be here.
    Thank you to the Committee staff as well. I know you 
traveled to get here today. You see Dr. Joyce and I work 
together, and our incredible staff also work really hard to 
find common ground and get things done. We are very much 
appreciative of your work. I also want to thank the law 
enforcement with us today. Thank you for being here and always 
making sure we are kept safe. Finally, thanks to all the folks 
in the audience who came here today as well.
    Field hearings are incredibly important, like I said 
earlier. Bringing Congress to our communities means a lot. 
Thank you for welcoming me to Gettysburg today. I hope to have 
Dr. Joyce out to Iowa sometime, and now I have to show off our 
district.
    It is just exciting to be able to find this common ground. 
As we work to make sure that we have policies that work for the 
entire country, it is so important that we understand each 
other's districts. This topic in particular touches 
agriculture, our kids, school districts, economic development, 
and our hospitals.
    We know that access to broadband can mean the difference 
between business growing or closing their doors, and as Mr. 
Ross said, rural parts of our country being revitalized or left 
behind. Closing the digital divide is a top priority for me. It 
is why we are here. I will keep fighting to make sure that 
Iowans voices are heard on these important issues, and it is 
very obvious that Dr. Joyce will do the same for each of you.
    With that, I would like to ask unanimous consent that 
members have 5 legislative days to submit statements and 
supporting materials for the record. Without objection, so 
ordered.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 2:20 p.m., the Subcommittee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
